                                                                    For Official Use Only




                       AUDIT OF FTS WORKING CAPITAL /
                           RESERVE FUND LEVELS
                      REPORT NUMBER A040132/T/A/Z05012

                                  MARCH 28, 2005




                                       NOTICE:

This report has been developed by and is the property of the Office of Audits, Office
of Inspector General. Copies of the report are provided to agency personnel for
official purposes only and should not be disseminated further. Agency officials who
receive requests to release this report to anyone outside of the General Services
Administration should refer the requestor to the Office of Inspector General, Office of
Counsel – Freedom of Information Officer.




                                                                    For Official Use Only
                                                                               For Official Use Only
           u.s. GENERAL SERVICESADMINISTRATION
           Office of Inspector General




Date:         March 28, 2005

Reply to      William D. Anthony, Audit Manager
Attn of:      Acquisition Programs Audit Office (JA-A)

Subject:      Audit of FTS Working Capital/Reserve Fund Levels
              Report Number AO40132/T/A/ZO5012

To:           Barbara L. Shelton
              Acting Commissioner, Federal Technology Service (T)

This report presents the results of the Office of Inspector General's review of the
Federal Technology Service's (FTS) reserve fund levels. The audit was included in
the Fiscal Year (FY) 2004 Office of Inspector General's Annual Plan.

Background

Over the years GSA's funding sources transitioned from direct enacted
appropriations from the general funds of the Treasury to self-sustaining reimbursable
revolving funds. GSA's FY 2005 Budget reflects obligations totaling $24.3 billion for
programs under GSA's accounts. Most funds (about 99%) become available to GSA
from Federal customers through reimbursements to three revolving funds for
purchase of goods and services or as rent paid for space in GSA owned and leased
buildings. While the President's 2006 budget proposes to merge the General Supply
Fund with the Information Technology (IT) Fund, the focus of this discussion is the IT
Fund.

FTS recovers both the costs of products and services and the costs of delivery of the
products and services for its information technology and telecommunications
activities through the IT Fund. The IT Fund is a full cost recovery, revolving fund that
provides Federal agencies with information technology solutions and
telecommunications products and services. These include information technology
solutions, local telecommunications and long-distance products and services.

The IT Fund was established by the Paperwork Reduction Reauthorization Act of
1986, as included in Public Laws 99-500 and 99-591, section 821 (a) (1); 40 U.S.C322.


Levels of funding for capital investments and operating capital are determined
through the submission of planned cost and capital requirements to the Office of
Management and Budget (OM B) pursuant to section 110 (a) (1) of the Federal
 Property and Administrative Services Act of 1949, as amended by P.L. 99-591.

                24118th Street5., CS4,Suite 400,Arlington, VA 22202-3402
                                                ~
                      FederalRecyclingProgram ...,   Printedon RecycledPaper
                                                                               For Official Use Only
                                                                                             For Official Use Only

statute authorizes the Administrator to establish rates to be charged to agencies
receiving services that are consistent with the Cost and Capital Requirements Plan.
The IT Fund’s capital reserve provides financing for capital investments and program
costs which are one-time or non-recurring in nature, allowing for more stable rates
for services even when expenses vary because of unique events such as the
Networx1 transition. The reserve requirements and fees are developed annually by
FTS and included as part of the IT Fund Cost and Capital Requirements (C & C)
Plan. For every dollar FTS collects from their customers, 95.6 percent goes to
vendors for services provided. The remaining 4.4 percent covers FTS
administrative/overhead expenses and IT Fund contributions (Appendix A).

There are four business lines financed through the fund:

        •    Regional IT Solutions
        •    National IT Solutions
        •    Regional Telecommunications
        •    Long Distance

An overview of the business lines’ fee structure and usage of those fees can be
viewed in Appendix A.

Objective, Scope and Methodology

    The objectives of our audit were to answer the following questions: Has
    GSA/FTS established a methodology to determine appropriate working
    capital/reserve fund levels? If not, is the level of working capital/reserve
    fund levels comprising the IT Fund sufficient to “act as a safety net”, while
    not causing unduly high costs to FTS’ customers?

To make our assessment we:
   • Reviewed establishing legislation in order to identify relevant criteria;
   • Reviewed audit reports for relevant findings and recommendations;
   • Reviewed FTS Cost and Capital Requirements Plans for FY04/05, FY05/06,
     and Obligation Schedule file for IT Fund reserve balance and trend
     information;
   • Reviewed Contribution Income Statements for all business units for FYs 1999
     through 2004 for Net Operating Results (NOR) and related effect on IT Fund
     reserve account balances;
   • Reviewed available monthly balance sheet information from March 2001
     through the end of FY2004 to determine cash, receivables, payables, and
     reserve account balance and trend information;



1
 The Networx program will provide telecommunications and networking services to federal agencies and will serve as the
primary replacement for the expiring FTS2001 and FTS2001 Crossover contracts and Federal Wireless contracts.




                                                         2                                   For Official Use Only
                                                                    For Official Use Only

   •   Utilized FY 2003 and FY 2004 FTS Audited Consolidating Balance Sheets,
       Consolidating Statements of Net Cost, and Consolidating Statements of
       Changes in Net Position to reconcile and validate, on an end of FY basis,
       electronic financial information submitted to the audit team;
   •   Interviewed cognizant officials from the Service Coordination and Analysis
       Division within the GSA Office of the Chief Financial Officer, and Office of the
       FTS Chief Financial Officer (CFO);
   •   Researched other Federal and state revolving funds to identify applicable
       reserve balance criteria;
   •   Researched relevant U.S. Tax Court (USTC) decisions involving private
       corporation capital reserve balances.

Our audit work was performed during the period April 2004 through December 2004.
The survey phase of the audit involved looking at four business lines and the
reserves of the IT Fund. Initially we identified three separate audits – IT Fund
reserve levels, Regional Telecommunication (RT) fees, and Regional IT Solutions
(RIT) fees; we have since decided to perform two audits, the first on the working
capital/reserve fund levels of the IT Fund and the second encompassing the fees of
RT and RIT.

This report addresses the IT Fund and principally involved work with the Office of the
FTS CFO. The audit was conducted in accordance with generally accepted
government auditing standards.

Results of Review

FTS has a methodology for establishing levels of the IT Fund. At the end of FY 2004
the IT Fund balance was reported as $214 million in the FY05/06 Cost and Capital
Plan. While some guidance for minimum IT Fund reserves can be inferred from the
establishing legislation, we did not find requirements relating to maximum reserve
levels defined by OMB, the GSA Office of the Chief Financial Officer, or FTS. Even
with the pending consolidation of the IT and General Supply Funds, determining
maximum reserve levels would ensure that sufficient funds are available to meet
mission needs without maintaining excess reserves and burdening customer
agencies with additional fees.

FTS had revenue of approximately $8.4 billion in FY 2004, marking the first time that
FTS revenue has not increased in the last ten years. On a year-to-year basis FTS
NOR has been volatile. FY 2004 NOR was approximately $31 million. The largest
negative NOR during the time frame we reviewed was $57.7 million in FY 2001.

The FY 2004 FTS cash balance averaged approximately $291 million. The reported
IT Fund balance of $214 million does not include an additional $37 million listed in
Retained Earnings Other or $66 million identified as Appropriated Capital; FTS has
informed us that the Appropriated Capital was start-up capital to commence
business-like operations and is not available to shoulder losses.



                                          3                         For Official Use Only
                                                                      For Official Use Only

To the extent we can determine, OMB and GSA Budget have never rejected the
IT Fund levels contained in the Cost and Capital Requirements Plans. The IT
Fund’s “permanent” Working Capital reserve account is targeted for a balance of
approximately $40 million by FTS. Its use includes shouldering business unit
losses, financing for capital investments and program costs which are one-time or
non-recurring in nature, and allowing for more stable rates for services even when
expenses vary because of unique events such as Networx Transition. The
balance of each business unit’s “temporary” reserve account is a function of the
NOR of that unit.

The legislation that established the IT Fund provides some guidance relating to
minimum balances required. 40 USC Sec. 757 (c) 1) (A) relates that:
“. . . the Administrator is authorized to enter into multiyear contracts for the provision
of information technology hardware, software, or services for periods not in excess
of five years, if funds are available and adequate for payment of the costs of such
contract for the first fiscal year and any costs of cancellation or termination . . . “
To our knowledge OMB, GSA, and FTS have not defined maximum levels for the
reserves that comprise FTS’ IT Fund. Developing maximum reserve levels would
ensure that there are sufficient IT funds available to meet the mission needs without
maintaining excess amounts and burdening customer agencies with additional fees.

While we did not find requirements for maximum reserve levels defined by OMB, the
GSA Office of the Chief Financial Officer, or FTS, there are United States Tax Court
(USTC) decisions that relate to the capital reserve balances of private corporations
that are relevant and could be extended in principle to a professional service
organization like FTS. The Bardahl formula (see Appendix B) was developed by the
USTC to calculate the base level of working capital required for one operating cycle
of a private manufacturing company that can be included in retained earnings
(capital reserves). The Bardahl ruling permits this working capital base to be
supplemented by other reasonable business needs - assuming they can be
substantiated - such as debt retirement and expansion of the business.

In a related ruling, the USTC allowed two months of professional salaries to be
added to the reserve levels calculated by Bardahl for Simons-Eastern, a private
professional services company that did not maintain inventories. The USTC
rendered both of these decisions in cases where the IRS had levied the excess
accumulated earnings tax on private corporations it determined had maintained
capital reserves in excess of what was needed for reasonable business purposes.

FTS operates in a business-like manner and is a professional services organization.
Using the concepts embodied in the Bardahl and Simons-Eastern decisions, an
evaluative process could be constructed to assess the maximum level of capital
reserves required in the IT Fund.




                                           4                          For Official Use Only
                                                                      For Official Use Only


The graph on page C1 of Appendix C illustrates a range of required IT Fund
maximum aggregate reserve levels based on three components selected by us: 1)
working capital; 2) two months of professional salaries; and, 3) varying percentages
of planned, non-recurring capital investments/transition expenditures over the next
five fiscal years included in the IT Fund. We used the change in reserves shown in
the FY05/06 C & C Plan as a surrogate for these non-recurring expenditures to
capture net impact on the IT Fund. In addition, we estimated and included annual
contributions (profits before reserve uses) to the IT Fund for FYs 2007 through 2009
for this illustration. Although it is current FTS practice to only include estimated
contributions for the next two FYs in their C & C plan, it is our belief that an estimate
of future contributions must be included for all applicable years for this methodology
to be viable. We used $28 million, as it was the lowest annual contribution level
going back to FY1993.

The graph on page C2 of Appendix C replicates the graph above except that our
estimated annual contributions are not included in NOR for FYs 2007 though 2009.
This graph was inserted for illustrative purposes at the request of FTS.

While FTS NOR fluctuates to positive and negative amounts over the last five years,
we believe FTS’ use of this type of dynamic, evaluative process will maintain IT
Fund reserves at needed levels and stabilize FTS fees. This assumes that FTS
manages its receivables aggressively to minimize its operating cycle and related
working capital needs, and resulting in cash balances sufficient for ordinary business
needs.

Recommendation

We recommend that the FTS Commissioner:

   1. Develop and utilize a dynamic evaluative process to determine maximum IT
      Fund capital reserve levels. The components comprising the reserves should
      be quantifiable, able to be substantiated, and reasonably related to the
      business needs of FTS. This process should also be flexible enough to
      continue to be applicable after the consolidation of the IT and General Supply
      Funds.

Issues Needing Further Consideration and/or Study

   1. Investment of U.S. Government, Appropriated Capital listed at $66 million.

       The Office of the FTS CFO indicated that this amount was start-up capital and
       not available to shoulder losses. FTS as an organization is well beyond start
       up, and the GSA Office of the Chief Financial Officer and the Office of the
       FTS CFO should assess the need to continue restricting this $66 million.




                                           5                          For Official Use Only
                                                                     For Official Use Only

   2.   Investment of U.S. Government, Retained Earnings Other

        FTS needs to assess whether the $37 million in this capital account should be
        included in the reported IT Fund balance.

   3. Continuing negative National Information Technology (NIT) budget.

        FTS needs to assess whether NIT is a viable business entity.

   4    Receivables trend

        FTS needs to review the trend of rising unbilled receivables as this results in
        decreasing cash balances (See Chart in Appendix D).

   5,   FTS Overhead growth

        FTS Corporate Overhead is listed at $40.8, $48.8, and $66.3 million on its
        respective FY02, FY03, and FY04 Contribution Income Statements. This
        rapid growth is disproportionate with growth in business volume and should
        be assessed.

Management Comments

In a memorandum dated March 23,2005 (see Appendix E), the Acting
Commissioner of the Federal Technology Service concurred in principle with the
above recommendation.

Internal Controls

Except for the control aspect of an evaluative process discussed in the Results of
Review section, this review did not require, nor did we perform, a review of internal
controls.

We wish to thank the FTS for the assistance provided during the audit. If you have
any questions, please contact me on (703) 603-0189.


  #
       D. Anthony
Audit Manager
           -

Acquisition Programs Audit Office (JA-A)




                                         6                           For Official Use Only
                                                                                                                                                         For Official Use Only

                                           AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
                                                    REPORT NUMBER A040132/T/A/Z05012
                                             APPENDIX A – RATE STRUCTURE AND USAGE FY 2004

                                                                Federal Technology Service (FTS)
                Regional IT
                                            National IT Solutions                           Regional Telecommunications                                      Long Distance
                 Solutions
                                                                                         Local                           2/                  3/
Type of                         1/                      1/                    1/
                                                                                   Telecommunications
                                                                                                            Expanded           Commercial          Long Distance        Wireless and
                 IT Solutions            IT Solutions         IT Solutions
Service                                                                                                      Services             Tolls              Services         Satellite Services
                                                                                        Services


 Rate             Surcharge            Hourly by Grade          Surcharge          Average Line Rate         Surcharge           Surcharge           Surcharge            Surcharge
 Type


Rate         % of Total Acquisition
                                         Labor Hours            % of Total         Number of dial tone       % of Total         % of Vendor         % of Vendor
                                                                                                                                                                     % of Vendor Billing
Base                                      Provided              Acquisition             lines                Acquisition          Billing             Billing




                                                                                           4/

                                                                                   Region 1 - $21.55
                                                                                   Region 2 - $20.36
                                         GS-15 - $166                                                                                                                Direct bill to agency
                                         GS-14 - $147                              Region 3 - $20.47
                 Commodities                                  Commodities                                    Equipment                                               from vendor
                                                                                   Region 4 - $24.14
                   2% - 4%               GS-13 - $140           2% - 4%                                       2% - 4%                                                1% - 2%
 Rate                                    GS-12 - $132
                                                                                   Region 5 - $18.01
                                                                                                                                   16.6%                7%
Range              Services              GS-11 - $127            Services
                                                                                   Region 6 - $26.81
                                                                                                              Services                                               Ordering and billing
                                         GS-09 - $114                              Region 7 - $21.80
                   3% - 5%                                       3% - 5%                                      3% - 5%                                                 provided by GSA
                                                                                   Region 8 - $25.32
                                         GS-07 - $107                                                                                                                        4%
                                        GS-03/06 - $99                             Region 9 - $26.19
                                                                                   Region 10 - $18.68
                                                                                   Region 11 - $10.11



 1/   FY03 IT Solutions includes commodities such as hardware and software, and advisory services for information technology
 2/   Includes any services in support of the local telecommunications infrastructure, such as equipment, servers, and project management and other services
 3/   Comprises that portion of the long distance service provided by the local exchange carrier
 4/   These FY03 line rates and associated charges vary widely by geographic location and are strongly influenced by the degree of competition in the marketplace.




                                                                                         A-1                                                             For Official Use Only
                                                                              For Official Use Only

                   REPORT NUMBER A040132/T/A/Z05012
             APPENDIX A – RATE STRUCTURE AND USAGE FY 2004

                          Information Technology Fund
    Cost of Services Managed by GSA’s Federal Technology Service (FTS)

                                  FY 2003 Actual          FY 2004 Actual
                                     ($Millions)            ($Millions)

Revenue                              $8,731                 $8,459

Cost of Goods Sold                    8,385        96%       8,085        95.6%
(Payments to Vendors)

Gross Margin                         $ 346         4%       $ 374         4.4%

For every dollar FTS collects from their customers, 96 cents goes to vendors for services
provided. The remaining 4 cents covers FTS administrative/overhead expenses. The
following information reflects how the remaining 4 cents is spent within FTS. \1

        Salaries                               $    131     37.9%         =     1.51 cents

        Commercial Services \2                      65      18.8%         =     0.75 cents

        FTS Administrative Expenses \3              56      16.2%         =     0.65 cents

        GSA Administrative Expenses \4              47      13.6%         =     0.54 cents

        Rent, Utilities, Other                      26        7.5%        =     0.31 cents

        Non-Rate Recoverable Expenses               21        6.0%        =     0.24 cents

Total FTS Administrative/
  Overhead Expenses                      $          346    100.0%         =    4 cents

\1 FTS Administrative/Overhead Expense breakdown presented for FY 2003 only.

\2 Contractor provided support services to FTS.

\3 Includes FTS Administrative costs (i.e., cost of the Commissioner, Deputy
   Commissioner, FTS CFO, FTS CIO and FTS Office of Acquisition).

\4 Includes GSA Centralized Administrative Support Services (i.e., CFO, CPO, CIO and
   legal services), GSA Centralized Charges (i.e., agency-wide common distributable costs)
   and GSA Information Infrastructure (i.e., GSA network support costs).



                                             A-2                              For Official Use Only
                                                             For Official Use Only

        AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
                 REPORT NUMBER A040132/T/A/Z05012
                      APPENDIX B – GLOSSARY

Accounts Payable (average): This was established by summing the Funded
and Unfunded Accounts Payable and the DEL PAY (GEN ENTRS) line item
balances for all months that data were included on the comparative balance
sheets that were provided to us by the FTS office of the CFO. This sum was then
divided by the number of months. For FY04 this amount was calculated to be
$1,254,723,827.

Accounts Payable (AP) Turnover Ratio: Bardahl calculates the AP turnover
ratio by dividing the average AP balance by Purchases plus total annual
expenses net of depreciation and other noncash expenses. We used Cost of
Goods Sold (COGS) as a surrogate for Purchases and did not incorporate any
noncash expenses beyond depreciation.

        AP Turnover Ratio = (Average AP + DEL PAY) / [COGS +
        annual expenses – (depreciation + noncash expenses)]

For FY04:

        Average Annual AP Turnover Ratio = $1,254,723,827 /
        [$8,085,074,800 + $349,125,400 – ($15,158,064)]

        Average Annual AP Turnover Ratio = 0.1490
            Times 365 days = 54.4 days

        Peak Operating Cycle Month AP Turnover Ratio = 0.1519
            Times 365 days = 55.4 days

Accounts Receivable (average): The total Accounts Receivable line item
balance was used for those months that data were available from the balance
sheets provided to us by the FTS office of the CFO. This sum was then divided
by the number of months. For FY04 this amount was calculated to be
$1,305,137,658.


Accounts Receivable (AR) Turnover Ratio: Bardahl calculates the AR turnover
ratio by dividing average AR by annual sales on account. We assumed that all
FTS sales were on account and used annual revenue as a surrogate for sales on
account.

        AR Turnover Ratio = Average accounts receivable / Annual
        Revenue




                                        B-1                 For Official Use Only
                                                              For Official Use Only

        AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
                 REPORT NUMBER A040132/T/A/Z05012
                      APPENDIX B – GLOSSARY


For FY04:

        Average Annual AR Turnover Ratio = $1,305,137,658 / $8,458,644,700

        Average Annual AR Turnover Ratio = 0.1543
            Times 365 days = 56.3 days

        Peak Operating Cycle Month AR Turnover Ratio = 0.1672
            Times 365 days = 61.0 days

Bardahl Formula: The Bardahl formula was developed by the United States Tax
Court (USTC) to calculate the base level of working capital required for one
operating cycle of a manufacturing company that can be included in retained
earnings (capital reserves) and is expressed as:

Working Capital = Operating Cycle x [COGS + annual operating expenses –
(depreciation + noncash expenses)]

The Bardahl ruling permits this working capital base to be supplemented by other
reasonable business needs - assuming they can be substantiated - such as debt
retirement, expansion of the business, etc.

In a related ruling (Simons-Eastern), the USTC allowed two months of professional
salaries to be added to the reserve levels calculated by Bardahl for a professional
services company that did not maintain inventories. The USTC rendered both of
these decisions in cases where the IRS had levied the excess accumulated earnings
tax on organizations it determined had maintained capital reserves in excess of what
was needed for reasonable business purposes.

Bardahl Manufacturing Corp., 1965 PH T.C. Memo ¶65,200, 24 TCM 1030, at 1044
and Bardahl International Corp., 1966 PH T.C. Memo ¶66,182, 25 TCM 935

Simons-Eastern Co. v. U.S., 31 AFTR 2d 73-640, 73-1 USTC ¶9279 (D.C. GA,
1972)

Capital Accounts and Capital Reserve Accounts: See Reserve Accounts below.

Comparative Balance Sheets: We received Excel files with monthly comparative
balance sheets for January 2001 through September 2004 from the FTS CFO’s
office. The 2004 September balance sheets were validated against the audited




                                        B-2                  For Official Use Only
                                                                  For Official Use Only

        AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
                 REPORT NUMBER A040132/T/A/Z05012
                      APPENDIX B – GLOSSARY

Consolidating Balance Sheets contained in the FY 2004 Annual Performance
and Accountability Report.

Contribution Income Statements (CIS): The audit team received Excel files
with annual CIS for FY 1999 through FY 2004 from the FTS CFO’s office. The
2004 Revenues, Expenses and Net Operating Results (NOR) were validated
against the audited Consolidating Statements of Changes in Net Position and
Consolidating Statements of Net Costs from the 2004 Annual Performance and
Accountability Report (PAR).

Depreciation Expense: Depreciation is not broken out separately as an
expense on the CIS; therefore, the audit team calculated the difference between
end-of-year and beginning-of-year Accumulated Depreciation shown on the
comparative balance sheets and used this amount as depreciation expense. For
FY04 this amount was $15,158,064.

Inventory turnover ratio: Bardahl calculates the inventory turnover ratio by
dividing average inventory balance by the annual COGS. Since FTS does not
maintain inventory the audit team did not calculate this ratio.

IT Fund: The reserves that make up the IT Fund are capital reserve accounts
included in the equity section of the balance sheet. There is also an Appropriated
Capital account in the equity section with a FY04 end of year balance of
approximately $66 million.

Net Operating Results (NOR): This figure reflects revenue less COGS,
Program Expenses, reserve expenses, and FTS and GSA overhead and is
comparable to Net Income. For FY04 NOR was $30,989,700.

Operating Cycle: (cash to inventory to accounts receivable to cash) Under
Bardahl, the operating cycle is determined by adding the inventory turnover ratio
to the accounts receivable turnover ratio and then subtracting the accounts
payable turnover ratio. This ratio multiplied by 365 will give the operating cycle in
days.

Average Operating Cycle for FY04:

     Average AR Turnover Ratio = 0.154 (56.3 days)
Less Average AP Turnover Ratio = 0.149 (54.4 days)
     Operating Cycle           = 0.005 ( 1.9 days)




                                           B-3                   For Official Use Only
                                                               For Official Use Only

        AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
                 REPORT NUMBER A040132/T/A/Z05012
                      APPENDIX B – GLOSSARY

Peak Average Operating Cycle for FY04:

     Peak Operating Cycle Month AR Turnover Ratio = 0.167 (61.0 days)
Less Peak Operating Cycle Month AP Turnover Ratio = 0.151 (55.4 days)
     Peak Operating Cycle                         = 0.015 ( 5.6 days)

           Note: slight differences due to rounding.

Operating Expenses: Annual operating expenses were calculated by summing
all revenue and expense center expenses detailed on the “rev_cst ctrs” sheet of
the CIS.

Reserve Accounts: In the Cost and Capital Requirements Plan submitted to
OMB for approval, FTS identifies 5 reserve accounts as comprising the overall IT
Fund. These are the Long Distance Reserve, the Regional Telecom Reserve, the
Regional IT Solutions Reserve, the National IT Solutions Reserve, and the
Working Capital Reserve.

On the monthly balance sheets, the IT Fund reserve accounts are found in the
Investment of U.S. Government (equity) section under the heading Reserve
Balances as capital accounts and are further broken down and entitled:
Innovative Tech Reserve, E-Mail Reserve, Elect Commerce Reserve, FISSP
Reserve, INFO Security Reserve, FEDSIM/FEDCAC Reserve, Local (258),
Contingencies-Local, Working Capital Reserve, Network Service Reserve, and
Contingencies-FT 2000. Both the $66 million listed as Appropriated Capital, and
the $37 million listed as Retained Earnings Other, in the Investment of U.S.
Government section are not included in the IT Fund totals by FTS in the Cost and
Capital Requirements Plan.

Retained Earnings: Derived from positive NOR and accounted for in the FTS
Capital Reserve accounts.

Working capital: Working Capital is generally defined as the excess of current
assets over current liabilities. Bardahl calculates the working capital necessary
for an operating cycle by multiplying the operating cycle ratio by the sum of
annual Cost of Goods Sold plus Annual Operating Expenses net of depreciation
and other noncash expenses.

           Working Capital = Operating Cycle x [COGS + annual
           operating expenses – (depreciation + noncash expenses)]




                                         B-4                   For Official Use Only
                                                                   For Official Use Only

        AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
                 REPORT NUMBER A040132/T/A/Z05012
              APPENDIX C – IT FUND ILLUSTRATIVE CHART



                   IT Fund Capital Reserve Requirement
                                     Dollars in 000's
                                                             Current overall IT Fund
  $250,000                                                   Capital Reserve Level:
                                                                  $214 million
  $200,000
                                                            Capital/Transition
  $150,000                                                  Expenditures
                                                            Two Month's Salaries per
  $100,000                                                  Simons-Eastern
                                                            Peak Working Capital per
   $50,000                                                  Bardahl

          $0
                40%     50%      60%     70%     80%
        % of Future Capital / Transition Expenditures in
                            IT Fund




The estimate of varying Capital/Transition Expenditures included in the IT Fund
is based on the next five fiscal years projected Change in Reserves per FY05/06
C & C Plan modified by our inclusion of estimated annual contributions (profits
before reserve uses) of $28 million for FYs 2007 through 2009. Although it is
current FTS practice to only include estimated contributions for the next two FYs
in their C & C plan, it is our belief that an estimate of future contributions must be
included for all applicable years for this methodology to be viable. We used $28
million, as it was the lowest annual contribution level going back to FY1993.

The chart illustrates that inclusion of 40% of the PV of the next five years’
Capital/Transition Expenditures in the IT Fund would permit the return of $39
million to the Treasury, whereas inclusion of 80% of these expenditures would
permit the return of $17 million to the Treasury.




                                          C-1                     For Official Use Only
                                                                For Official Use Only

        AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
                 REPORT NUMBER A040132/T/A/Z05012
              APPENDIX C – IT FUND ILLUSTRATIVE CHART



                  IT Fund Capital Reserve Requirement
                                   Dollars in 000's

  $300,000                                                Current overall IT Fund
                                                          Capital Reserve Level:
  $250,000                                                     $214 million

  $200,000
                                                         Capital/Transition
  $150,000                                               Expenditures
                                                         Two Month's Salaries per
  $100,000
                                                         Simons-Eastern
   $50,000                                               Peak Working Capital per
                                                         Bardahl
         $0
               40%     50%     60%     70%     80%
       % of Future Capital / Transition Expenditures in
                           IT Fund



This graph was inserted for illustrative purposes at the request of FTS.

The estimate of Capital/Transition Expenditures is based on the next five fiscal
years projected Change in Reserves per FY05/06 C & C Plan and assumes no IT
Fund contributions (profits before reserve uses) for FY07 forward, even though
FY04 actual contributions were $53.7 million, and FY05 and FY06 contributions
are projected to average $32.4 million.

It is our belief that an estimate of future contributions based on some measure of
contribution history (rolling average, minimum contribution within moving window,
etc.) must be included for this methodology to be viable.




                                         C-2                   For Official Use Only
                                                                      For Official Use Only

                   AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
                            REPORT NUMBER A040132/T/A/Z05012
                        APPENDIX D – RECEIVABLES & CASH TRENDS


$1,600,000,000



$1,400,000,000



$1,200,000,000



$1,000,000,000
                                                                                Cash


 $800,000,000                                                                   Billed Receivables

                                                                                Unbilled Receivables
 $600,000,000
                                                                                Poly. (Unbilled
                                                                                Receivables)
 $400,000,000                                                                   Poly. (Cash)

                                                                                Poly. (Billed
 $200,000,000                                                                   Receivables)


            $0
              01
            n-
           Ja




 ($200,000,000)




                                         D-1                          For Official Use Only
                                         For Official Use Only

AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
         REPORT NUMBER A040132/T/A/Z05012
APPENDIX E – FTS ACTING COMMISSIONER’S RESPONSE




                     E-1                 For Official Use Only
                                                                                       For Official Use Only

             AUDIT OF FTS WORKING CAPITAL/RESERVE FUND LEVELS
                      REPORT NUMBER A040132/T/A/Z05012
                      APPENDIX F – REPORT DISTRIBUTION




                                      REPORT DISTRIBUTION

                                                                                                       Copies
Acting Commissioner, Federal Technology Service (T) ......................................... 3
Office of the Chief Financial Officer (B).................................................................. 2
Audit Follow-up and Evaluation Branch (BECA) .................................................... 1
Assistant Inspector General for Auditing (JA, JAO) .............................................. 2
Assistant Inspector General for Investigations (JI) ................................................ 1




                                                   F-1                                 For Official Use Only
